WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No.20-6574
Kevin L. Martin y, Ashlynn Ledford
(etitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check one of the following boxes:
@ Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):

Signature. .
Date: —Ghauaty- 8. 202)

(Type or print) Name. Aaron T. Craft
@eur OMs. QMrs. QQ Miss
Firm Office of the Attorney General

 

Address Indiana Government Center South, 302 W. Washington Street, Fifth Floor
City & State Indianapolis, IN Zip 46204
Phone 317-232-4774

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Kevin L. Martin DOC #169789
Pendleton Correctional Facility 4490 W. Reformatory Rd.
Pendleton, IN 46064
